TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Disaster Recovery Issues Have Not Been
                      Effectively Resolved, but Progress
                                Is Being Made



                                        February 29, 2008

                              Reference Number: 2008-20-061




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                February 29, 2008


 MEMORANDUM FOR CHIEF INFORMATION OFFICER


 FROM:                  (for) Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Disaster Recovery Issues Have Not Been
                               Effectively Resolved, but Progress Is Being Made (Audit # 200720005)

 This report presents the results of our review to determine the effectiveness of the corrective
 actions taken to resolve the previously reported disaster recovery material weaknesses.1 This
 review was part of the Treasury Inspector General for Tax Administration Fiscal Year 2007
 Annual Audit Plan coverage.

 Impact on the Taxpayer
 The Internal Revenue Service (IRS) declared the Disaster Recovery Program2 a material
 weakness in March 2005 and is taking several actions to improve the Program. However,
 Disaster Recovery Program weaknesses have not been effectively resolved. As a result, the IRS
 cannot ensure minimal disruption to tax administration activities, which include the collection of
 approximately $2.7 trillion in revenue for the Federal Government and processing of more than
 228 million tax returns.

 Synopsis
 Treasury Directive 85-01, Information Technology Security Program, dated
 February 13, 2003, states the Bureau Chief Information Officers shall designate a point of
 contact to coordinate all policy issues related to information systems security. The Federal


 1
  See Appendix V for a Glossary of Terms.
 2
  The Disaster Recovery Program serves to facilitate cross-organizational buy-in, participation, concurrence, and
 communication of all IRS disaster recovery activities.
                   Disaster Recovery Issues Have Not Been Effectively Resolved,
                                   but Progress Is Being Made



Information Security Management Act (FISMA)3 requires Federal Government agencies to
identify and provide information security protections commensurate with the risk and magnitude
of the harm resulting from the disruption or destruction of information. Disaster recovery is an
organization’s ability to respond to an interruption in services by implementing a plan to restore
critical business functions.
In March 2005, we reported4 significant Disaster Recovery Program weaknesses continued to be
unresolved and determined that 27 of 44 corrective actions for prior audit recommendations in
the Program had not been completed. Therefore, we recommended, and the IRS agreed, the
Disaster Recovery Program should be reported as a material weakness.
Since declaring the Program as a material weakness in March 2005, the IRS has effectively
implemented some corrective actions to address prior audit recommendations and has taken other
constructive measures to help ensure future progress toward ultimately resolving the material
weakness. For example, on October 1, 2006, the IRS incorporated disaster recovery into the
overall Computer Security Material Weakness Plan,5 identifying five corrective action
components. In December 2006, the Chief Information
Officer listed the completion of corrective actions to
demonstrate progress in resolving the Computer Security           Several actions have been
                                                                   taken to address Disaster
Material Weakness as one of the Chief Information Officer              Recovery Program
Commitments for Calendar Year 2007. Finally, in                     weaknesses. However,
October 2007, the IRS formed a new Disaster Recovery             corrective actions to address
Program Office within the Modernization and Information          prior audit recommendations
Technology Services organization’s Cybersecurity                     and material weakness
                                                                  components have not been
organization to provide oversight, accountability, and              effectively implemented.
responsibility for developing and maintaining the IRS
Enterprise Disaster Recovery Strategy.
We also determined that some corrective actions taken by the IRS in addressing prior audit
recommendations have not been effectively implemented. For example, copies of the disaster
recovery plans were not stored at the recovery sites’ offsite storage facilities or centralized in
designated electronic file locations. In one disaster recovery exercise, participants used a
combination of the Disaster Recovery Exercise Plan (because a Disaster Recovery Plan was not
available) and individual reference material they had brought to the exercise to recover the
system(s). Evidence supporting announced, unannounced, and annually planned tests of the
offsite storage vendors’ ability to timely deliver all backup files and documentation to the



3
  The FISMA is part of the E-Government Act of 2002, Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
4
  See report #12 in Appendix IV.
5
  Computer Security Material Weakness Plan, IRS-2A-01-01, as Material Weakness Area 1-6, Information
Technology Contingency Planning.
                                                                                                              2
                       Disaster Recovery Issues Have Not Been Effectively Resolved,
                                       but Progress Is Being Made



disaster recovery site was not available. Finally, documentation was not provided to support the
disaster recovery training strategy.
Our review of the disaster recovery-related Computer Security Material Weakness Plan
corrective actions determined the actions have not been effectively implemented. We identified
a major information technology system directly supporting 4 of the 25 critical processes6 and
cited as having an Information Technology Contingency Plan. However, the system did not have
an Information Technology Contingency Plan. The gap analysis (originally due
October 1, 2005) of the current Modernization and Information Technology Services
organization business resumption capabilities against business unit requirements, including both
Recovery Point Objectives and Recovery Time Objectives, for all major systems has not been
completed. Items notated as critical in disaster recovery exercise summary reports were not
always addressed in subsequent year testing. Disaster recovery plan documentation is not
standardized, complete, or accurate. Finally, the IRS is not currently collecting and reporting
metrics to assess progress and track improvements within the Disaster Recovery Program.

Recommendations
The Chief Information Officer should ensure all Disaster Recovery Plan documentation is
standardized, complete, accurate, readily accessible in the event of disaster, detailed enough to
be used verbatim to react to a worst-case scenario, and reviewed quarterly; ensure effective
completion of tasks as required in disaster recovery guidance incorporated in the Internal
Revenue Manual from the Office of Management and Budget, National Institute of Standards
and Technology, and the FISMA; ensure offsite storage vendors’ ability to timely deliver all
disaster recovery backup files and documentation to the disaster recovery site using announced,
unannounced, and annually planned tests; ensure appropriate disaster recovery site personnel are
identified and provided with annual training to ensure they have the ability to implement the
Disaster Recovery Plan; ensure disaster recovery exercise lessons learned or action items deemed
as critical are included in subsequent exercises; and ensure a permanent file is established for
keeping documentation supporting closure of prior recommended corrective actions and
completion of material weakness corrective action plan components related to the Information
Technology Contingency Planning material weakness.

Response
IRS management agreed with our recommendations. Planned corrective actions include ensuring
all Disaster Recovery Plan documentation is standardized, accurate, comprehensive,
appropriately detailed, up-to-date, and written in a clear, cohesive format; ensuring the


6
    Eighteen critical business processes and seven critical administrative or infrastructure processes.
                                                                                                          3
                 Disaster Recovery Issues Have Not Been Effectively Resolved,
                                 but Progress Is Being Made



accessibility and availability of all Plan documentation; developing a comprehensive Disaster
Recovery Internal Revenue Manual and ensuring all program-related documentation adheres to
and complies with all relevant Federal Government guidance; ensuring effective completion of
tasks as required in the Internal Revenue Manual; implementing a repeatable process that
includes an Information Technology Contingency Plan/Disaster Recovery Test Guide and
Checklist; developing a comprehensive disaster recovery specific training curriculum and
training all individuals who have disaster recovery responsibilities; developing a database as
training is completed to provide an assessment report to management for use in evaluating
training progress, qualified personnel, and skill-set risks; and developing a repeatable process to
ensure subsequent exercises include lessons learned or action items deemed as critical.
Management also established the Modernization and Information Technology Services
organization’s Information Technology Disaster Recovery organization. The responsibilities of
this program office include validating all closure activities for corrective actions and collecting
and maintaining all documentation that supports closure and/or mitigation of all corrective
actions, material weaknesses, and any outstanding year-to-year weaknesses remediation
recommendations. Management’s complete response to the draft report is included as
Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                      4
                      Disaster Recovery Issues Have Not Been Effectively Resolved,
                                      but Progress Is Being Made




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Several Actions Have Been Taken to Address the Disaster Recovery
          Program Weaknesses ....................................................................................Page 4
          Additional Management Actions Are Needed to Effectively Address
          Disaster Recovery Program Weaknesses......................................................Page 5
                    Recommendation 1: .................................................................. Page 10

                    Recommendations 2 through 4: ................................................ Page 11

                    Recommendations 5 and 6: ....................................................... Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Prior Audit Reports Addressing Disaster Recovery ............Page 17
          Appendix V – Glossary of Terms .................................................................Page 18
          Appendix VI – Management’s Response to the Draft Report ......................Page 21
        Disaster Recovery Issues Have Not Been Effectively Resolved,
                        but Progress Is Being Made




                       Abbreviations

ECC              Enterprise Computing Center
FISMA            Federal Information Security Management Act
IRS              Internal Revenue Service
                   Disaster Recovery Issues Have Not Been Effectively Resolved,
                                   but Progress Is Being Made




                                           Background

Disaster recovery is an organization’s ability to respond to an interruption in services by
implementing a plan to restore critical business functions. In March 2005, we reported1
significant Disaster Recovery Program2 weaknesses continued to be unresolved and determined
that 27 of 44 corrective actions for prior audit recommendations in the Program had not been
completed. Therefore, we recommended and the Internal Revenue Service (IRS) agreed that the
Disaster Recovery Program should be reported as a material weakness3 and should include the
following actions:
    1. Obtain Modernization and Information Technology Services organization, Mission
       Assurance and Security Services organization
       (recently renamed to Cybersecurity and moved under        Disaster recovery is an
       the Modernization and Information Technology              organization’s ability to
       Services organization), and business unit executive    respond to an interruption in
       support for the establishment of Business Resumption    services by implementing a
                4                                                 plan to restore critical
       Strategy and Disaster Recovery Strategy effort due
                                                               business functions. Based
       dates and the monitoring and reporting of the progress    on reported significant
       and status of the efforts.                              Disaster Recovery Program
                                                                                 weaknesses, the IRS
    2. Complete the Business Resumption Strategy and                          reported the Program as a
       Disaster Recovery Strategy efforts and identify the                       material weakness.
       Modernization and Information Technology Services
       organization disaster recovery requirements (including
       Modernization requirements).
    3. Conduct a gap analysis to identify the difference between the Modernization and
       Information Technology Services organization disaster recovery requirements and current
       capabilities.
    4. Coordinate with IRS, Department of the Treasury, and Office of Management and Budget
       management to obtain the resources needed to correct the material weakness.



1
  See report #12 in Appendix IV.
2
  The Disaster Recovery Program serves to facilitate cross-organizational buy-in, participation, concurrence, and
communication of all IRS disaster recovery activities.
3
  See Appendix V for a Glossary of Terms.
4
  The Chief, Agency-Wide Shared Services, is responsible for the overall IRS Business Resumption Strategy and the
Associate Chief Information Officer, Management, is responsible for the Modernization and Information
Technology Services organization’s Business Resumption Strategy.
                                                                                                         Page 1
                   Disaster Recovery Issues Have Not Been Effectively Resolved,
                                   but Progress Is Being Made



 In March 2005, the IRS declared the Disaster Recovery Program a material weakness. On
 October 1, 2006, the IRS incorporated disaster recovery into the overall Computer Security
 Material Weakness Plan, IRS-2A-01-01, as Material Weakness Area 1-6, Information
 Technology Contingency Planning. Figure 1 describes the five material weakness corrective
 action components.
               Figure 1: Material Weakness Corrective Action Components
 Corrective Action Component                                       Description
 Information Technology                Maintain a prioritized list of critical information technology
 Contingency Plan prioritization       systems that support critical business processes and ensure
                                       Information Technology Contingency Plans exist for these
                                       systems.
 Establish recovery capability         Develop and maintain Information Technology Contingency
                                       Plans associated with general support systems to include all
                                       components that support critical applications, establish and
                                       maintain data and processing backup-recovery capability, and
                                       ensure maximum allowable outage times meet the recovery
                                       time objectives of the applications being supported.
 Disaster Recovery Plan test and       Develop baseline expectations and requirements for Disaster
 exercise development                  Recovery Plan and Disaster Recovery Plan tests and
                                       exercises. Identify roles and responsibilities for documenting
                                       the Disaster Recovery Plan and Disaster Recovery Plans
                                       testing requirements. Also, identify the frequency and type of
                                       testing required and reporting requirements.
 Test and review adequacy of           Conduct both desktop and end-to-end disaster recovery tests
 plans                                 for critical applications. Perform annual system risk
                                       assessments to promote and track Information Technology
                                       Contingency Plan and Disaster Recovery Plan improvements.
 Material weakness area metrics        Establish and maintain collection and reporting of metrics to
                                       assess progress and track improvements in all component
                                       activity implementations over time.
Source: The IRS Computer Security Material Weakness Plan, IRS-2A-01-01, dated October 1, 2006.

 This review was performed at the Modernization and Information Technology Services
 organization offices in New Carrollton, Maryland; Martinsburg, West Virginia;
 Memphis, Tennessee; and Atlanta, Georgia, during the period March through October 2007. We
 conducted this performance audit in accordance with generally accepted government auditing
 standards. Those standards require that we plan and perform the audit to obtain sufficient,

                                                                                                 Page 2
                Disaster Recovery Issues Have Not Been Effectively Resolved,
                                but Progress Is Being Made



appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. This review was part of the Treasury Inspector
General for Tax Administration Fiscal Year 2007 Annual Audit Plan coverage under the major
management challenge of Security of the IRS. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                          Page 3
                     Disaster Recovery Issues Have Not Been Effectively Resolved,
                                     but Progress Is Being Made




                                    Results of Review

Several Actions Have Been Taken to Address the Disaster Recovery
Program Weaknesses
Treasury Directive Number 85-01, Department of the Treasury Information Technology (IT)
Security Program, dated February 13, 2003, states the Bureau Chief Information Officers shall
designate a point of contact to coordinate all policy issues related to information systems security
(including information technology security, operational security (threats and vulnerability
assessments), emissions security, certificate management, electronic authentication, continuity
planning, and critical infrastructure protection. Office of Management and Budget
Circular A-123, Management’s Responsibility for Internal Control, dated December 21, 2004,
requires agencies to take timely and effective action to correct management control deficiencies
and to complete implementation of agreed corrective actions within 1 year to the extent
practicable.
Our review of implemented corrective actions to address prior audit recommendations
determined the IRS effectively implemented some of the corrective actions. For example:
      1. In a March 2004 audit report,5 we recommended the Chief Information Officer
         implement cost-effective solutions that would reduce the time needed to restore the
         Master File to the 36 hours required for critical business processes by revising the Master
         File backup procedures and Master File Disaster Recovery Plan to provide for storage of
         the disaster recovery backup files and documentation at the Enterprise Computing
         Center (ECC)-Memphis. The corrective action agreed to for this recommendation was
         effectively implemented. We verified the ECC-Martinsburg is using a process for
         shipping a copy of the Master File operating system files to the ECC-Memphis weekly.
           We also recommended the Chief Information Officer ensure disaster recovery tests are
           based on catastrophic scenarios and include tests integrated with the recoveries of
           interdependent systems. The recommendation was addressed. The IRS added the
           following systems to the Computing Center disaster recovery tests: the Automated
           Collection System (a mainframe-based system) in October 2004; the Customer Accounts
           Data Engine (a Tax Systems Modernization system) in September 2006; and the
           Automated Underreporter system (a mid-range computer system) in July 2007.




5
    See report #6 in Appendix IV.
                                                                                             Page 4
                   Disaster Recovery Issues Have Not Been Effectively Resolved,
                                   but Progress Is Being Made



    2. In an April 2004 audit report,6 we recommended for the offices reviewed
       (ECC-Martinsburg, ECC-Memphis, Atlanta Campus, and Atlanta Territory) that the
       Chief Information Officer ensure each site perform at least one exercise of each Disaster
       Recovery Plan element annually. The recommendation was addressed. We verified each
       office is conducting annual disaster recovery testing.
The IRS also annually performs comprehensive disaster recovery exercises to test recovery of
systems and operations at its three Computing Center locations and is performing periodic stand-
alone exercises for some critical systems. During three disaster recovery exercises we observed,
the disaster recovery exercise participants effectively used the exercise plans to monitor the plan
execution, held exercise status update meetings twice each day, worked together to resolve
issues, and agreed to build lessons learned into future Disaster Recovery Exercise Plans.
In addition, in December 2006, the Chief Information Officer listed the completion of corrective
actions to demonstrate progress in resolving the Computer Security Material Weakness as one of
the Chief Information Officer Commitments for Calendar Year 2007. The current Disaster
Recovery Program Director was appointed in late Calendar Year 2005 and was responsible for
both the Disaster Recovery and the Computer Security Incident Response Center Programs until
the programs were separated in July 2007. In October 2007, the IRS formed a new Disaster
Recovery Program Office within the Modernization and Information Technology Services
organization’s Cybersecurity organization to provide oversight, accountability, and responsibility
for developing and maintaining the IRS Enterprise Disaster Recovery Strategy. Additional staff
and funding has been committed for disaster recovery through the new office.

Additional Management Actions Are Needed to Effectively Address
Disaster Recovery Program Weaknesses
Homeland Security Presidential Directive 7, Critical Infrastructure Identification, Prioritization,
and Protection, dated December 17, 2003, and the Federal Information Security Management
Act (FISMA)7 require Federal Government agencies to identify and provide information security
protections commensurate with the risk and magnitude of the harm resulting from the disruption
or destruction of information. In addition, the FISMA requires management to identify and
report significant vulnerabilities and the associated Plans of Action and Milestones to address the
vulnerabilities. The vulnerabilities will be included in the Federal Managers’ Financial Integrity
Act of 19828 material weaknesses reported annually to the Secretary of the Treasury, Congress,
and the President. The Internal Revenue Manual further emphasizes the importance of
identifying and reporting material weakness control deficiencies that significantly impair the
fulfillment of the IRS mission or that the Commissioner determines to be of sufficient

6
  See report #8 in Appendix IV.
7
  The FISMA is part of the E-Government Act of 2002, Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
8
  31 U.S.C. §§ 1105, 1113, 3512 (2000).
                                                                                                          Page 5
                   Disaster Recovery Issues Have Not Been Effectively Resolved,
                                   but Progress Is Being Made



importance to be reported outside of the IRS until corrected. The Government Accountability
Office Standards for Internal Control in the Federal Government9 provide that documentation
should be maintained to provide evidence of actions taken to address risks in a computerized
information system environment and the documentation should be readily available for
examination.
The FISMA also requires each Federal Government agency to develop, document, and
implement an agencywide program to provide information security for the information and
information systems that support the operations and assets of the agency, including those
provided or managed by another agency, contractor, or other source. An effective information
security program should include, in part, subordinate plans for providing adequate information
security for networks, facilities, information systems, or groups of information systems, as
appropriate, and periodic testing and evaluation of the effectiveness of information security
policies, procedures, practices, and security controls to be performed with a frequency depending
on risk but no less than annually. The Internal Revenue Manual states contingency development,
testing, and maintenance shall be coordinated with other related plans including the Business
Continuity Plan, Disaster Recovery Plan, Continuity of Operations Plan, Business Recovery
Plan, and Incident Response Plan.
National Institute of Standards and Technology Contingency Planning Guide for Information
Technology Systems (Special Publication 800-34), dated June 2002, states that, to be successful,
management must develop or reexamine their information technology contingency planning
policies and plans with emphasis on maintenance, training, and exercising the contingency plan.
In addition, best practices outline performance indicators as a mechanism for measuring the
success of the disaster recovery process and plan. Performance indicators may include periodic
tests, periodic reports, and review and analysis of the disaster recovery process.

Corrective actions for prior audit recommendations have not been effectively
implemented
Our review of 27 closed corrective actions (i.e., corrective actions reported as completed by the
IRS in the Joint Audit Management Enterprise System) determined the IRS did not have
documentation to show the actions were taken before closing all corrective actions and to show
permanent improvements were made to the disaster recovery process. For example:
      1. In an April 2003 audit report,10 we recommended the Chief Information Officer ensure
         the ECC-Detroit and the ECC-Memphis store all required documents for all of their
         consolidated mid-range computer systems at the offsite facility (either in hardcopy or in
         an easily retrievable electronic copy). The IRS agreed to have the ECC-Detroit identify
         the documentation available and ensure copies were stored offsite. The IRS also agreed

9
    GAO/AIMD-00-21.3.1, dated November 1999.
10
    See report #3 in Appendix IV.
                                                                                             Page 6
                      Disaster Recovery Issues Have Not Been Effectively Resolved,
                                      but Progress Is Being Made



           to conduct audits of mid-range systems for required certification documents as stated in
           the Internal Revenue Manual and any other appropriate documentation that were to be
           stored offsite. Finally, the IRS agreed to have its National Office provide complete
           documentation to the ECC-Detroit. After modifying the original corrective action
           completion due date from December 15, 2003, to April 15, 2004, to allow more time to
           develop an electronic system to track the offsite documentation and Disaster Recovery
           and Business Resumption Plans, the IRS showed the corrective action for this
           recommendation was closed as completed on April 1, 2004. However, during our
           observation of two disaster recovery tests, we determined the IRS did not have permanent
           hardcopies of the Disaster Recovery Plans stored at the recovery sites’ offsite storage
           facilities or centralized in designated electronic file locations.
       2. In an August 2004 audit report,11 we recommended the Chief Information Officer test and
          evaluate the ECC-Detroit offsite storage vendor’s ability to deliver in a timely manner the
          mainframe computer disaster recovery backup files and documentation to the ECC-
          Memphis and determine whether the ECC-Detroit backup procedures and Disaster
          Recovery Plan should be revised to provide for backup files and documentation to be
          stored at the ECC-Memphis. The IRS agreed to have the Enterprise Operations
          organization validate that the ECC-Detroit offsite storage vendor can deliver in a timely
          manner the mainframe computer disaster recovery backup files and documentation to the
          ECC-Memphis. The IRS also agreed that, in addition to the ECC-Detroit’s annual
          planned disaster recovery exercise, it would annually conduct a random test of the offsite
          vendor’s ability to deliver backup files in a timely manner. This test would be
          unannounced and, upon completion of the test, a determination would be made as to
          whether the Plan should be revised to provide for backup files and documentation to be
          stored at the ECC-Memphis. The IRS closed these corrective actions as completed as of
          January 6, 2005. However, the IRS was unable to provide evidence supporting
          announced, unannounced, and annually planned tests of the
          offsite storage vendor’s ability to deliver in a timely manner
                                                                            The corrective actions
          all backup files and documentation to the disaster recovery         taken by the IRS to
          site.                                                               address prior audit
                                                                           recommendations did
       3. In the April 2003 audit report previously cited,12 we             not effectively resolve
          recommended the Chief Information Officer develop a                the reported issues.
          schedule to periodically train ECC-Detroit,
          ECC-Martinsburg, and ECC-Memphis employees in their
          disaster recovery roles and responsibilities. The IRS agreed to develop a disaster
          recovery training strategy and draft training manuals on roles and responsibilities. The
          corrective action was closed as completed on November 9, 2004. However, the IRS was

11
     See report #9 in Appendix IV.
12
     See report #3 in Appendix IV.
                                                                                              Page 7
                      Disaster Recovery Issues Have Not Been Effectively Resolved,
                                      but Progress Is Being Made



           not able to provide (1) a copy of the disaster recovery training strategy, (2) copies of the
           training manuals regarding personnel roles and responsibilities, or (3) support for disaster
           recovery training (e.g., training dates, types, and participants). As a result of ineffective
           disaster recovery training, the IRS does not have personnel onsite at the recovery location
           to fully perform disaster recovery duties. During disaster recovery exercises, we
           observed employees who were responsible for restoring production systems performing
           the recovery duties rather than the personnel who were assigned to the recovery location.
       4. In a March 2004 audit report,13 we recommended the Chief Information Officer ensure
          the Master File Disaster Recovery Plan is complete, detailed enough to be used verbatim
          to react to a worst-case scenario, accurate, reviewed quarterly, and updated as needed.
          The IRS agreed the Director, ECC-Martinsburg, will ensure, as resources permit, that
          the Master File Disaster Recovery Plan will be revised to allow recovery by
          non-ECC-Martinsburg technical personnel and that the Master File Disaster Recovery
          Plan is complete, detailed enough, accurate, reviewed quarterly, and updated as needed.
          The IRS closed the corrective action as completed on December 7, 2004. However, our
          review of the Master File Disaster Recovery Plan determined reviews were not always
          performed quarterly. In addition, while our observation of the Master File disaster
          recovery test determined test participants were using the Master File Disaster Recovery
          Plan, our observation of one other mainframe disaster recovery test determined that
          recovery site personnel used a combination of the Disaster Recovery Exercise Plan
          (because a Disaster Recovery Plan was not available) and individual reference materials
          they had brought to the exercise to recover the system(s) during the disaster recovery
          exercise.

Material weakness corrective actions have not been effectively implemented
We reviewed the five open corrective action components documented by the IRS in its overall
Computer Security Material Weakness Plan for improving the disaster recovery process. The
results of our corrective action component review follow.
Information Technology Contingency Plan prioritization – Completion due date:
September 30, 2008.
The IRS is in the process of replacing the Technical Contingency Planning Documents with
Information Technology Contingency Plans and has scheduled completion of this effort over a
3-year period ending in Fiscal Year 2008. The new Information Technology Contingency Plans
will include Appendix H (i.e., Disaster Recovery Plan), which provides specific procedures for
recovering key application components.



13
     See report #6 in Appendix IV.
                                                                                                 Page 8
                       Disaster Recovery Issues Have Not Been Effectively Resolved,
                                       but Progress Is Being Made



We judgmentally selected 8 of 30 major information technology systems identified as directly
supporting the 25 critical processes14 to determine whether the systems had Information
Technology Contingency Plans prepared and tested. We found 1 of 8 systems did not have an
Information Technology Contingency Plan prepared and tested, although the system was 1 of the
systems supporting 4 or more of the 25 critical processes. The IRS Certification Program
Office’s schedule showed the system as having an Information Technology Contingency Plan.
However, we determined the system still has a Technical Contingency Planning Document dated
December 6, 2006.
Establish recovery capability – Completion due date as modified by management during our
review: September 30, 2010 (completion was originally due September 30, 2008).
The IRS committed, originally by October 1, 2005, to performing the gap analysis of the current
Modernization and Information Technology Services organization business resumption
capabilities against business unit requirements and to include both Recovery Point Objectives
and Recovery Time Objectives for all major systems in the analysis. In February 2007, the IRS
hired a contractor to assist in preparation of a business impact analysis due to be completed in
January 2008. The business impact analysis will include a gap analysis and confirm what
applications there are and the expected Recovery Time Objectives and Recovery Point
Objectives associated with the applications.
Disaster Recovery Plan Test and Exercise Development –
Completion due date as modified by management during our                                      Material weakness
                                                                                           corrective actions have
review: December 31, 2008 (completion was originally due                                     not been completed,
September 30, 2008).                                                                           and the IRS has
                                                                                                 extended the
The IRS is responsible for ensuring disaster recovery test and                              completion due dates.
exercise activities include timely and efficient disaster recovery
exercise results reporting. However, where lessons learned or
action items from prior year tests were included and recommended as critical, the items were not
always addressed in subsequent year testing. For example, a Calendar Year 2006 disaster
recovery exercise identified the need to include in the Calendar Year 2007 exercise a test to
ensure modified computer programming could be implemented while in a disaster recovery
mode. The Calendar Year 2007 exercise summary report cites completion of this item as one of
the main goals for the Calendar Year 2007 exercise; however, the goal was not accomplished
because no one involved in the exercise ensured the prior year item was addressed.
Test and review adequacy of plans – Completion due date as modified by management during
our review: December 31, 2010 (completion was originally due September 30, 2008).
Based on our review of offsite storage boxes and designated electronic file locations, the IRS is
not properly maintaining contingency planning and Disaster Recovery Plan documentation for

14
     Eighteen critical business processes and seven critical administrative or infrastructure processes.
                                                                                                             Page 9
                 Disaster Recovery Issues Have Not Been Effectively Resolved,
                                 but Progress Is Being Made



ready availability in the event of a disaster. For example, we found Disaster Recovery Plan
documents are not timely updated, standardized (e.g., there are Disaster Recovery Plans,
Information Technology Contingency Plans, and Technical Contingency Planning Documents),
located in offsite storage or designated electronic file locations, complete, or accurate. However,
management stated a working group has been established to review the various document
templates to improve Disaster Recovery Plan standardization.
Material weakness area metrics – Completion due date as modified by management during our
review: June 30, 2011 (completion was originally due March 31, 2009).
The IRS is not currently collecting and reporting metrics to assess progress and track
improvements within the Disaster Recovery Program.
The deficiencies discussed continue because of (1) several changes in management,
(2) management’s determination that other issues were more important than disaster recovery
issues, and (3) unapproved budget requests for resources and staff years needed to address
disaster recovery issues. In addition, the IRS did not fully comply with established disaster
recovery guidance in the Internal Revenue Manual incorporated from Office of Management and
Budget, National Institute of Standards and Technology, and FISMA guidelines.
By not correcting previously reported deficiencies and having formal guidance in place to govern
the disaster recovery process, the IRS may be unable to timely and successfully recover the
systems and operations in a disaster. The IRS also may not ensure minimal disruption to tax
collection of approximately $2.7 trillion in revenue for the Federal Government and processing
of more than 228 million tax returns. Due to the continued program deficiencies, the Disaster
Recovery Program material weaknesses should not be downgraded to a significant deficiency.
We are making no recommendations for in-process areas such as the completion of the gap
analysis of the current Modernization and Information Technology Services organization
business resumption capabilities against business unit requirements and the development of
metrics.

Recommendations
The Chief Information Officer should ensure:
Recommendation 1: All Disaster Recovery Plan documentation is standardized, complete,
accurate, readily accessible in the event of disaster (e.g., from offsite storage and designated
electronic file library locations), detailed enough to be used verbatim to react to a worst-case
scenario, and reviewed quarterly.
       Management’s Response: IRS management agreed with this recommendation and
       plans to evaluate and revise all existing Disaster Recovery Plan documentation and
       templates used to perform and coordinate disaster recovery-related activities; ensure all

                                                                                           Page 10
                Disaster Recovery Issues Have Not Been Effectively Resolved,
                                but Progress Is Being Made



       Plan documentation is standardized, accurate, comprehensive, appropriately detailed,
       up-to-date, and written in a clear, cohesive format; ensure Plan documentation includes
       all relevant Federal Government guidance and all other critical information needed to
       perform disaster recovery-related activities; perform a comprehensive inventory analysis
       audit to ensure the accessibility and availability of all Plan documentation and that the
       appropriate offsite storage and retrieval procedures are in place; and research a web-
       based centralized repository tool for maintaining disaster recovery documentation in a
       secure and readily accessible manner.
Recommendation 2: Effective completion of tasks as required in disaster recovery guidance
incorporated in the Internal Revenue Manual from the Office of Management and Budget,
National Institute of Standards and Technology, and the FISMA.
       Management’s Response: IRS management agreed with this recommendation and
       plans to develop a comprehensive Disaster Recovery Internal Revenue Manual and
       ensure all program-related documentation adheres to and complies with all relevant
       Federal Government guidance. In addition, management will ensure effective completion
       of tasks as required in Internal Revenue Manual disaster recovery guidance through the
       embedded Compliance function within the Cybersecurity organization’s Disaster
       Recovery organization. Management will also provide status reports on each of the
       disaster recovery recommendations through bi-monthly meetings with the Deputy
       Commissioner for Operations Support.
Recommendation 3: Offsite storage vendors can timely deliver all disaster recovery backup
files and documentation to the disaster recovery site using announced, unannounced, and
annually planned tests.
       Management’s Response: IRS management agreed with this recommendation and
       plans to implement a documented repeatable process during the 2007-2008 annual
       FISMA reporting period that includes an Information Technology Contingency
       Plan/Disaster Recovery Test Guide and Checklist. Management also plans to direct test
       participants to provide evidence of the recovery backup files’ delivery and actual time
       frame for delivery. Business/System owners will update the Checklist with the results of
       the exercises and enter findings into the application/General Support Systems Plans of
       Action and Milestones. The completed Checklist will validate completion of the
       Tabletop Exercise and Functional Test and document findings. It will then be loaded into
       Trusted Agent FISMA as the artifact verifying the results of the exercise/test.
Recommendation 4: Appropriate disaster recovery site personnel are identified and provided
with annual training to ensure they have the ability to implement the Disaster Recovery Plan in
the event production site personnel are not available during a disaster.
       Management’s Response: IRS management agreed with this recommendation and
       plans to develop a comprehensive disaster recovery specific training curriculum; develop

                                                                                         Page 11
                Disaster Recovery Issues Have Not Been Effectively Resolved,
                                but Progress Is Being Made



       a specialized training course to address specific training requirements in various disaster
       recovery disciplines such as testing, plan development, business impact assessment, and
       compliance, and train all individuals who have disaster recovery responsibilities; initiate
       a site-to-site cross-training skill set evaluation and training program to ensure critical skill
       sets reside in a specific location, responsible individuals receive training, and skill sets
       are replicated in other locations; and develop a database as training is completed to
       provide an assessment report to management for use in evaluating training progress,
       qualified personnel, and skill set risks.
Recommendation 5: Disaster recovery exercise lessons learned or action items deemed as
critical are included in subsequent exercises.
       Management’s Response: IRS management agreed with this recommendation and
       plans to develop a repeatable process to ensure subsequent exercises include lessons
       learned or action items deemed as critical. As all Information Technology Contingency
       Plans and Disaster Recovery Plans are exercised and tested, test participants will follow a
       formal Checklist to ensure documentation of system/organizational changes or problems
       encountered during plan implementation, execution, or testing. If more critical problems
       are found, Summary Findings will note where corrective actions and findings are
       documented for viewing and analysis by the Designated Approving Authority.
       Management also plans to develop a process for entering these findings in the
       application/General Support Systems Plans of Action and Milestones for monitoring and
       tracking, and require the Designated Approving Authority to sign the Checklist validating
       that the Tabletop Exercise and Functional Test have been completed and findings
       documented.
Recommendation 6: A permanent file is established for keeping documentation supporting
closure of prior recommended corrective actions and completion of material weakness corrective
action plan components related to the Information Technology Contingency Planning material
weakness.
       Management’s Response: IRS management agreed with this recommendation and
       established the Modernization and Information Technology Services organization’s
       Information Technology Disaster Recovery organization. The responsibilities of this
       program office include validating all closure activities for corrective actions and
       collecting and maintaining all documentation that supports closure and/or mitigation of
       all corrective actions, material weaknesses, and any outstanding year-to-year weaknesses
       remediation recommendations. Management also established a process using project
       management schedules, work breakdown structures, and cross-organizational
       correspondence that enables this office to provide management with a more effective
       assessment of material weakness remediation progress for disaster recovery.



                                                                                              Page 12
                       Disaster Recovery Issues Have Not Been Effectively Resolved,
                                       but Progress Is Being Made



                                                                                                          Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the effectiveness of the corrective actions
taken to resolve the previously reported disaster recovery material weaknesses.1 To accomplish
our objective, we:
I.         Determined whether the disaster recovery issues in the Computer Security Material
           Weakness Plan, IRS-2A-01-01, Material Weakness Area 1-6, Information Technology
           Contingency Planning Section have been effectively resolved.
           A. Reviewed Treasury Directives, Office of Management and Budget Circulars, the
              Internal Revenue Manual, industry best practices, and other guidelines governing
              disaster recovery.
           B. Reviewed the Computer Security Material Weakness Plan, IRS-2A-01-01, Material
              Weakness Area 1-6, Information Technology Contingency Planning Section and
              evaluated the effectiveness of corrective actions for the five corrective action
              components. We interviewed IRS personnel and obtained a list of 30 critical
              information technology systems that support 25 critical processes.2 We selected a
              judgmental sample of 8 of the 30 systems and obtained contingency plan
              documentation to determine whether each of the 8 major systems had an Information
              Technology Contingency Plan. The eight systems were selected for review based on
              being identified as supporting four or more of the critical processes and not being
              identified as tested during the disaster recovery exercise conducted in July 2007. We
              also reviewed management’s efforts to establish the IRS’ recovery capability in part
              via completion of a gap analysis that encompassed defining Recovery Time
              Objectives. We also determined the effectiveness of the disaster recovery planning
              test and exercise development activities by interviewing IRS personnel, reviewing
              applicable requirements, and identifying the degree of testing and participant
              involvement. We reviewed contingency plan documents in offsite storage boxes
              and/or at the disaster recovery test locations. Finally, we interviewed IRS personnel
              to determine whether any material weakness area metrics had been established and/or
              were being used.
           C. Obtained a walkthrough of the ECCs to verify the disaster recovery process.



1
    See Appendix V for a Glossary of Terms.
2
    Eighteen critical business processes and seven critical administrative or infrastructure processes.
                                                                                                              Page 13
                    Disaster Recovery Issues Have Not Been Effectively Resolved,
                                    but Progress Is Being Made



        D. Determined whether Disaster Recovery Plans for the ECCs have been adequately
           tested and deficiencies identified from the disaster recovery tests have been
           adequately addressed. We reviewed the policies and procedures for conducting and
           evaluating tests, reviewed the Calendar Years 2006 and 2007 test plans, and requested
           documentation supporting disaster recovery-related training conducted prior to tests.
           We also observed the three ECC tests and reviewed the test results at the conclusion
           of the tests to determine the extent identified deficiencies (e.g., from the prior year)
           were addressed.
II.     Determined whether the corrective actions identified by management to address prior
        audit recommendations in the Disaster Recovery Program3 have been effectively
        implemented.
        A. Reviewed the Joint Audit Management Enterprise System reports for the 35 open
           corrective actions (as of March 16, 2005) from prior Treasury Inspector General for
           Tax Administration audit reports to determine actions completed and the current due
           date for open corrective actions.
        B. Determined whether the corrective actions implemented were the agreed-upon
           corrective actions (e.g., regarding personnel, training, and testing) and effectively
           resolved the disaster recovery vulnerabilities. We interviewed IRS personnel and
           requested documentation supporting the corrective actions the IRS reported as closed
           in the Joint Audit Management Enterprise System reports. We also assessed whether
           the corrective actions reported as completed established a repeatable process and
           considered the effectiveness of any alternative corrective actions taken in lieu of the
           agreed-upon corrective actions and/or the need for additional corrective actions.
           Finally, we discussed with management the justification for extending the completion
           date for the open corrective actions.
III.    Used computer-based data for background information related to 30 applications the IRS
        identified as supporting its 25 critical processes. We did not determine the validity and
        reliability of the data based on the scope of audit work performed. However, we did
        verify that these 30 major applications were included as a part of the IRS’ As-Built
        Architecture.




3
 The Disaster Recovery Program serves to facilitate cross-organizational buy-in, participation, concurrence, and
communication of all IRS disaster recovery activities.
                                                                                                          Page 14
                Disaster Recovery Issues Have Not Been Effectively Resolved,
                                but Progress Is Being Made



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Scott Macfarlane, Director
Danny Verneuille, Audit Manager
Mark Carder, Senior Auditor
Olivia DeBerry, Auditor
Charlene Elliston, Auditor
Linda Screws, Auditor




                                                                                     Page 15
               Disaster Recovery Issues Have Not Been Effectively Resolved,
                               but Progress Is Being Made



                                                                       Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Cybersecurity OS:CIO:C
Associate Chief Information Officer, Enterprise Operations OS:CIO:EO
Director, Disaster Recovery Operations OS:CIO:C
Director, Stakeholder Management OS:CIO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Associate Chief Information Officer, Cybersecurity OS:CIO:C
       Director, Program Oversight Office OS:CIO:SM:PO




                                                                             Page 16
                Disaster Recovery Issues Have Not Been Effectively Resolved,
                                but Progress Is Being Made



                                                                              Appendix IV

     Prior Audit Reports Addressing Disaster Recovery

1.    The Internal Revenue Service Has Made Substantial Progress in Its Business Continuity
      Program, but Continued Efforts Are Needed (Reference Number 2003-20-026, dated
      December 2002).
2.    Progress Has Been Made in Protecting Critical Assets (Reference Number 2003-20-047,
      dated February 2003).
3.    Improvements Are Needed to Effectively Implement the Disaster Recovery Strategy for
      Consolidated Mid-Range Computer Systems (Reference Number 2003-20-084, dated
      April 2003).
4.    The Implementation of Software Products to Manage and Control Computer Resources
      Needs Improvement (Reference Number 2003-20-151, dated July 2003).
5.    Risks Are Mounting as the Integrated Financial System Project Team Strives to Meet an
      Aggressive Implementation Date (Reference Number 2004-20-001, dated October 2003).
6.    The Master File Disaster Recovery Exercise Was Completed, but Significant
      Vulnerabilities Should Be Addressed (Reference Number 2004-20-053, dated March 2004).
7.    The Custodial Accounting Project Team Is Making Progress; However, Further Actions
      Should Be Taken to Increase the Likelihood of a Successful Implementation (Reference
      Number 2004-20-061, dated March 2004).
8.    Additional Disaster Recovery Planning, Testing, and Training Are Needed for Data
      Communications (Reference Number 2004-20-079, dated April 2004).
9.    Mainframe Computer Disaster Recovery Risks Are Increased Due to Insufficient Computer
      Capacity and Testing (Reference Number 2004-20-142, dated August 2004).
10. The Integrated Financial System Project Team Needs to Resolve Transition Planning and
    Testing Issues to Increase the Chances of a Successful Deployment (Reference
    Number 2004-20-147, dated August 2004).
11. To Ensure the Customer Account Data Engine’s Success, Prescribed Management
    Practices Need to Be Followed (Reference Number 2005-20-005, dated November 2004).
12. The Disaster Recovery Program Has Improved, but It Should Be Reported As a Material
    Weakness Due to Limited Resources and Control Weaknesses (Reference
    Number 2005-20-024, dated March 2005).



                                                                                         Page 17
                Disaster Recovery Issues Have Not Been Effectively Resolved,
                                but Progress Is Being Made



                                                                               Appendix V

                                Glossary of Terms

               Term                                         Definition
As-Built Architecture              Presents an enterprise view of the IRS Information
                                   Technology and Business environments and documents
                                   the Current Production Environment (applications, data
                                   stores, infrastructure, data interfaces) and related
                                   organizations, locations, technology platforms, etc.
Business Continuity Plan           Defines recovery responsibilities and resources necessary
                                   to respond to a disruption to business operations.
Business Recovery Plan             Outlines procedures to be used for the resumption of
                                   business after a disaster, specifically telling personnel, in
                                   detail, what has to be done to resume business in the event
                                   of a disaster or unplanned work stoppage (e.g., shipping
                                   work to a backup center if necessary).
Business Resumption Strategy       A strategy to resume normal business activities in the
                                   event of an emergency or interruption of daily business.
Campus                             The data processing arm of the IRS. The campuses
                                   process paper and electronic submissions, correct errors,
                                   and forward data to the Computing Centers for analysis
                                   and posting to taxpayer accounts.
Computing Centers                  Sites that support tax processing and information
                                   management through a data processing and
                                   telecommunications infrastructure.
Continuity of Operations Plan      A predetermined set of instructions or procedures that
                                   describe how an organization’s essential functions will be
                                   sustained for up to 30 days as a result of a disaster event
                                   before returning to normal operations.




                                                                                        Page 18
                Disaster Recovery Issues Have Not Been Effectively Resolved,
                                but Progress Is Being Made



               Term                                          Definition
Critical Processes                  The most important IRS processes from which
                                    agencywide resource decisions will be made. There are
                                    25 critical processes made up of 18 critical business
                                    processes (e.g., remittance processing, tax return
                                    processing, refund processing) and 7 administrative or
                                    infrastructure critical processes (e.g., provide a safe and
                                    equipped working environment, provide payroll).
Desktop Disaster Recovery Test      A desktop simulation exercise conducted for major
                                    systems that cannot conduct a live test annually but that
                                    still involve necessary participants and for which results
                                    are captured in a memorandum for the record.
Disaster Recovery Plan              A written plan for processing critical applications in the
                                    event of a major hardware or software failure or
                                    destruction of facilities.
Disaster Recovery Strategy          A strategy to ensure the IRS’ ability to recover operations
                                    within stated business recovery time and point objectives.
End-to-End Disaster Recovery Test   A full-scale live test of the disaster recovery capability
                                    with the actual systems, network, personnel, and
                                    procedures under actual operational conditions.
General Support Systems             Sets of resources that provide necessary information
                                    technology infrastructure support to applications and
                                    business functionality such that compromise would have a
                                    severe adverse effect on the IRS mission, tax
                                    administration functions, and/or employee welfare.
Incident Response Plan              The documentation of a predetermined set of instructions
                                    or procedures to detect, respond to, and limit
                                    consequences of malicious cyber attacks against an
                                    organization’s information technology system(s).
Information Technology              A plan developed to document procedures established to
Contingency Plan                    recover information technology systems (general support
                                    systems or applications), operations, and data after a
                                    disruption.




                                                                                          Page 19
                Disaster Recovery Issues Have Not Been Effectively Resolved,
                                but Progress Is Being Made



               Term                                         Definition
Joint Audit Management Enterprise   The Department of the Treasury’s audit tracking and
System                              management control system that went live in January 2003
                                    and replaced the IRS’ Inventory Tracking Closure System
                                    as the system of record.
Master File                         The IRS database that stores various types of taxpayer
                                    account information. This database includes individual,
                                    business, and employee plans and exempt organizations
                                    data.
Material Weaknesses                 Internal accounting and administrative control deficiencies
                                    in operations or systems that, among other things, severely
                                    impair or threaten the organization’s ability to accomplish
                                    its mission or to prepare timely, accurate financial
                                    statements or reports.
Operating System                    Software that directs a computer’s operations, controlling
                                    and scheduling the execution of other programs, and
                                    managing storage, input/output, and communication
                                    resources.
Plans of Action and Milestones      A management process that outlines security weaknesses
                                    pertaining to a specific system and the steps that need to
                                    be taken to remediate them. It details resources required
                                    to accomplish the milestones in meeting the task, and
                                    scheduled completion dates for the mitigation.
Recovery Point Objective            The point in time to which systems and data must be
                                    restored after an outage (e.g., end of previous day’s
                                    processing) to resume processing transactions.
Recovery Time Objective             The period of time within which data and system and
                                    application functionality must be restored after an outage
                                    (e.g., 1 business day) to resume processing transactions.
Technical Contingency Planning      Document developed to contain the recovery strategies,
Document                            essential resources, plans, and procedures necessary to
                                    allow someone at a disaster site to implement the recovery
                                    of the system in the event there is not a site disaster
                                    recovery analyst or Disaster Recovery Plan available.
Territory                           An office that serves taxpayers within a specified
                                    geographical area.

                                                                                         Page 20
    Disaster Recovery Issues Have Not Been Effectively Resolved,
                    but Progress Is Being Made



                                                    Appendix VI

Management’s Response to the Draft Report




                                                           Page 21
Disaster Recovery Issues Have Not Been Effectively Resolved,
                but Progress Is Being Made




                                                       Page 22
Disaster Recovery Issues Have Not Been Effectively Resolved,
                but Progress Is Being Made




                                                       Page 23
Disaster Recovery Issues Have Not Been Effectively Resolved,
                but Progress Is Being Made




                                                       Page 24
Disaster Recovery Issues Have Not Been Effectively Resolved,
                but Progress Is Being Made




                                                       Page 25
Disaster Recovery Issues Have Not Been Effectively Resolved,
                but Progress Is Being Made




                                                       Page 26
